OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/BOLIVIA’S 

INTEGRATED ALTERNATIVE 

DEVELOPMENT PROGRAM 

AUDIT REPORT NO. 1-511-08-007-P 

JULY 31, 2008 





SAN SALVADOR, EL SALVADOR

                       Office of Inspector General




     July 31, 2008

     MEMORANDUM

     TO: 	                Acting USAID/Bolivia Mission Director, Peter R. Natiello

     FROM: 	              Regional Inspector General/San Salvador, Timothy E. Cox /s/

     SUBJECT:	            Audit of USAID/Bolivia’s Integrated Alternative Development Program
                          (Report No. 1-511-08-007-P)


     This memorandum is our report on the subject audit. In finalizing the report, we carefully
     considered your comments on the draft report and we have included the mission’s
     comments in their entirety in appendix II.

     The report includes four recommendations for your action. The information provided in
     the mission’s response to the draft report indicates that management decisions have
     been made for all four recommendations. Determination of final action for these
     recommendations will be made by the Audit Performance and Compliance Division
     (M/CFO/APC) upon completion of the actions planned by the mission.

     I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO, AA 34023
Tel: (503) 2501-2999 Fax (503) 2228-5459
CONTENTS

Summary of Results.….…………………………………………...………………………….. . 1 


Background……………...……………………………………………………………………… . 3


Audit Objectives…………..………………………………………………………...…………… . 5


Audit Findings………………….……………………………………………………...……..… . 7


 Did USAID/Bolivia’s integrated alternative 

 development program achieve planned results and 

 what has been the impact?...................................…..……………...…………………..… . 7


       Program Needs an Updated Exit Strategy to Phase Out
       Funding of Tea Factories in the Yungas Region……….…….……………………. 12

       Program Needs an Action Plan to Collect 

       Counterpart Contributions from Coffee 

       Producers.…….………………..…………………………………………...…………. 14 


       Mission Needs an Action Plan for 

       the Disposition of Program Assets…………….…….………………………..…….. 15 


 Did USAID/Bolivia’s reporting on its integrated 

 alternative 

 development program provide stakeholders with

 complete and accurate information on the 

 progress of the program and the results achieved? ..…………………..………….….….16 


       ACDI/VOCA Needs to Strengthen 

       Reporting of the Generation of 

       Full-Time Equivalent Employment....................................................................... 16 


Evaluation of Management Comments………………..…………………………………... 18 


Appendix I – Scope and Methodology…………………..…………….………….…….... . 19 


Appendix II – Management Comments……………………………………………........... . 21 

SUMMARY OF RESULTS

USAID/Bolivia’s integrated alternative development program supports the U.S.
Government’s (USG’s) national interest in combating international crime and drugs, and
contributes to the USAID/State Department performance goal “trafficking in drugs,
precursors, persons and arms disrupted, and criminal organizations dismantled.” The
program complements USG-supported interdiction, eradication, and public diplomacy
efforts to achieve the performance goal by expanding and strengthening the
sustainability of an alternative licit economy in coca-growing and associated regions.
(See page 3.)

As part of its FY 2008 audit plan, the Regional Inspector General/San Salvador
performed an audit of USAID/Bolivia’s integrated alternative development program to
answer the following questions:

•	 Did USAID/Bolivia’s integrated alternative development program achieve planned
   results, and what has been the impact?

•	 Did USAID/Bolivia’s reporting on its integrated alternative development program
   provide stakeholders with complete and accurate information on the progress of the
   program and the results achieved? (See page 5.)

For the first audit objective, USAID/Bolivia’s integrated alternative development program
(IAD) achieved five of the seven FY 2007 planned results we reviewed. The program
met or exceeded its planned results for the annual export value of licit products, the
number of families benefited by alternative development or alternative livelihood
activities, increased sales of licit farm and non-farm products over the previous year, the
number of kilometers of maintained or improved roads, and the number of hectares
incorporated into the land ownership process. The program partially met its target for
two performance indicators: the number of full-time equivalent jobs created and hectares
of alternative development crops under cultivation. We could not determine whether the
program achieved planned results for FY 2006 because the mission did not establish
targets for the seven selected indicators. (See page 7.) Also related to the first audit
objective, the audit showed that the IAD program needs an updated exit strategy to
phase out funding of two tea factories (page 12), client groups have yet to pay an
outstanding balance of counterpart contributions totaling $213,522 (page 14), and
excess program property needs to be disposed of (page 15).

Regarding the second audit objective, USAID/Bolivia (and the mission’s contractors and
recipients) reported complete and accurate information on the progress of the program
and the results achieved. However, one implementing partner had weaknesses in the
collection and reporting of one performance indicator: full-time job generation. (See
page 16.)

The report recommends that USAID/Bolivia:

•	 Take action to implement an exit strategy to phase out financial support for two tea-
   processing facilities that have not become self-sustaining as originally envisioned
   when purchased in 2003. (See page 14.)



                                                                                         1
•	 Develop and implement an action plan to resolve the lack of counterpart
   contributions required from seven coffee producer grantees. (See page 15.)

•	 Work with Chemonics and the Government of Bolivia to develop a strategy to
   dispose of excess property in a timely fashion. (See page 16.)

•	 Work with the Agricultural Cooperative Development International and Volunteers in
   Overseas Cooperative Assistance (ACDI/VOCA) to correct errors in its reporting on
   full-time equivalent job creation and institute procedures to accurately report
   performance data in the future. (See page 17.)

USAID/Bolivia agreed with the findings and recommendations in the draft audit report
and has begun taking action on some of them. For example, the mission stated that
funding mechanisms for the two tea processing facilities have already concluded and
that no new activities will take place. Furthermore, the mission stated that the
implementing partner will complete an exit strategy by October 31, 2008 for the Chimate
tea facility and that a proposal to transfer the Caranavi tea plant will be submitted to the
GOB by November 30, 2008. In addition, the mission has specific plans to address the
report’s other three recommendations. (See page 19 and appendix II.)




                                                                                          2
BACKGROUND

The U.S. Government made a large commitment to fighting drug production and
narcotics trafficking throughout the Andean Region with the inauguration of Plan
Colombia, or the Andean Counterdrug Initiative (ACI), in 2000. Plan Colombia was
originally a $4 billion, six-year plan (2000-2005), to reduce drug crop cultivation and
improve human rights and the rule of law. The Andean region has been viewed as
particularly important because it produces virtually all of the world’s cocaine and
increasing amounts of high-quality heroin: Colombia, Peru, and Bolivia are the three
largest producers of cocaine. Bolivia ranks third behind Colombia and Peru in the
cultivation of coca, with 27,500 hectares under coca production in 2006. This represents
an 8 percent increase from 25,400 hectares in 2005.1

ACI is managed by the State Department’s Bureau of International Narcotics Control and
Law Enforcement Affairs and funds are divided between programs that support
eradication, interdiction, alternative crop development, and democratic institution
building. Therefore, some ACI funds are transferred to the U.S. Agency for International
Development (USAID) for alternative development programs that support development
programs in coca growing areas, including infrastructure development, and marketing
and technical support for alternative crops. ACI is not the only source of funds
supporting counternarcotics and economic development in the Andean region. In
addition to various military and Department of Defense programs, the United States also
provides economic development aid in the form of Development Assistance, Child
Survival and Health, and Economic Support Funds. While these programs are not
considered part of the Andean Counterdrug Initiative, they do support many programs
which are tangentially related, such as poverty reduction and infrastructure
improvements.

Bolivia was at one time the world’s foremost producer of coca leaf. It made great strides
in reducing coca cultivation under the Banzer-Quiroga administration (1997-2002), but
current Government of Bolivia (GOB) policies are significantly different from those of the
previous governments and generally rely on voluntary eradication. The total estimate of
27,500 hectares of coca bush cultivation in Bolivia in 2006 included 12,000 hectares (44
percent of total cultivation) permitted by Bolivian Law No. 1008 (1988) for traditional
uses such as leaf chewing, medicinal preparations, and coca tea with the majority of this
land in the Yungas of La Paz. In October 2004, the GOB temporarily authorized the
cultivation of 3,200 hectares of coca in the Chapare region. This policy permits up to
0.16 hectares of coca per household for traditional uses. Farmers are to eradicate any
coca in excess of these amounts.

It is in this challenging environment that USAID/Bolivia is implementing its integrated
alternative development program (IAD) strategy for 2005 to 2009 to make the alternative
licit economy in coca-growing areas increasingly sustainable. The mission plans to
accomplish this objective by (1) increasing market competitiveness of alternative rural
enterprises, (2) improving basic public services and social conditions, and (3) supporting
more effective, transparent, and responsive democratic institutions.



1
    United Nations Office of Drugs and Crime, “Bolivia Coca Cultivation Survey” June 2007.


                                                                                             3
In June 2005, USAID and the GOB signed a five-year agreement to implement the IAD
in the Chapare and Yungas regions.2 An implementation letter signed in May 2007
responded to budget cuts and incorporated a number of programmatic adjustments,
including shifting focus from the Chapare region toward the Yungas region (the
traditional coca growing area). As of September 30, 2007, the program had a total
estimated cost of $291 million, had obligated $225 million, and had disbursed $210
million.

The main implementing partners and activities under the IAD program are as follows:

•	     Chemonics International, Inc. – Chemonics was awarded a cost-plus-fixed-fee
       contract with a period of performance from March 2005 through February 2010.
       The original $60 million contract (currently in the process of being reduced to $50
       million because of budget cuts) supports the Rural Competitiveness Activity (ARCo)
       by identifying and assisting farmer groups and private sector associations that have
       considerable potential to be competitive in agricultural, agro-forestry,
       manufacturing, tourism, or other economic sectors. The project emphasis is on
       market demand, value chains, and sustainability.

•	     Chemonics International, Inc. – From November 2003 through May 2008,
       Chemonics (through a separate contract) also implemented the $9 million Bolivia
       Land Titling Project, aimed at improving the lives of residents of the Cochabamba
       Tropics region (known as the Chapare) by addressing the lack of secure land
       tenure. To accomplish this task, the project provided assistance to strengthen the
       Instituto Nacional de Reforma Agraria and the Government of Bolivia’s property
       registry entity, the Derechos Reales. This institutional strengthening would allow
       these GOB entities to replicate the land titling processes in other parts of the
       country.

•	     Agricultural Cooperative Development International and Volunteers in Overseas
       Cooperative Assistance (ACDI/VOCA) – In August 2005, ACDI/VOCA received a
       $42 million cooperative agreement extending through July 2010 to implement
       USAID/Bolivia’s Integrated Community Development Fund as part of the overall
       integrated alternative development program. The principal objectives of the activity
       are to increase access to public goods and services for communities and
       smallholder-farmer organizations that are vulnerable to the coca-cocaine economy;
       increase the participation of local leaders, local governments and citizen
       organizations in the development process through a participatory process; improve
       the welfare of poor rural families by attending to the basic needs of communities;
       and support emergency and immediate-impact activities through rapid response to
       social conflict and natural disasters.

•	     United Nations Office of Drugs and Crime – In September 2005, the United Nations
       Office of Drugs and Crime received a grant of $6.7 million from USAID, in addition
       to its own contribution of $2.5 million, with the goal of establishing and facilitating
       the management of the natural resources in the Tropics of Cochabamba and the
       Yungas of La Paz.

2
     According to the United Nations Office of Drugs and Crime’s “Coca Cultivation Survey for
     Bolivia,” dated June 2007, 69 percent of the total hectares under coca production for 2006
     were in the Yungas region and 30 percent were in the Chapare region.


                                                                                             4
•	   Rural Roads Authority Project – Through a grant agreement with the GOB,
     USAID/Bolivia provides support to the Rural Roads Authority Project. Overall, the
     project’s aim is to rehabilitate, improve, and consolidate a reliable rural road
     network in the Chapare and Yungas regions in order to link agricultural products
     with markets and support tourism and social development. The estimated cost of
     this project was $6 million in FY 2006 and $5.1 million in FY 2007.

AUDIT OBJECTIVES
As part of its FY 2008 audit plan, the Regional Inspector General/San Salvador
performed an audit of USAID/Bolivia’s integrated alternative development program to
answer the following questions:

•	 Did USAID/Bolivia’s integrated alternative development program achieve planned
   results, and what has been the impact?

•	 Did USAID/Bolivia’s reporting on its integrated alternative development program
   provide stakeholders with complete and accurate information on the progress of the
   program and the results achieved?

The audit scope and methodology are presented in appendix I.




                                                                                    5
(Map courtesy of Chemonics)




                              6
AUDIT FINDINGS

Did USAID/Bolivia’s integrated alternative development program
achieve planned results, and what has been the impact?
USAID/Bolivia’s integrated alternative development program (IAD) achieved five of the
seven planned results we reviewed3 for FY 2007. The program met or exceeded its
planned results for the annual export value of licit products, the number of families
benefited by alternative development or alternative livelihood activities, increased sales
of licit farm and nonfarm products, the number of kilometers of maintained or improved
roads, and the number of hectares incorporated in the land ownership process. The
program partially met its targets for the remaining two indicators, hectares of alternative
development crops under cultivation and the number of full-time equivalent jobs created.
We could not determine whether or not the program achieved planned results for FY
2006 because the mission did not establish targets for the seven selected indicators.
Table 1: Selected USAID/Bolivia Integrated Alternative Development Program Indicators
for FY 2007 and FY 2006
     Indicator                              FY 2007        FY 2007         FY 2006         FY 2006
                                             Target        Results          Target         Results
     Performance Management Plan Indicator
     Annual export value of licit products
                                                                          No target
     coming from Cochabamba Tropics            28             35                             N/A
                                                                         established
     and Yungas of La Paz ($ millions)
     Operational Plan Indicators
     Hectares of alternative development
                                                                          No target
     crops targeted by USG programs          6,900          6,0534                          4,900
                                                                         established
     under cultivation
     Number of families benefited by
     alternative development or                                           No target
                                             5,947          12,671                          7,584
     alternative livelihood activities in                                established
     USG-assisted areas
     Increased sales of licit farm and non­
                                                                          No target
     farm products in USG assisted areas     15.24           16.54                          11.40
                                                                         established
     over previous year ($ millions)
     Number of full-time equivalent jobs
     created by USG-sponsored                                             No target
                                             5,446           3,491                          4,504
     alternative development or                                          established
     alternative livelihood activities
     Number of kilometers of maintained                                   No target
                                              540            548                            4,113
     and improved roads                                                  established
     Number of hectares incorporated in                                   No target
                                            100,000        113,537                         115,000
     the land ownership process                                          established



3	
      These seven indicators were selected because they are considered to be the principal planned
      results of the program.
4	
      The target and reported results relate to activities implemented by the United Nations Office of
      Drugs and Crime. Chemonics achieved an additional 5,422 hectares of alternative crops
      under cultivation for FY 2007, but Chemonics’ activities were not included in the target or the
      results reported above.


                                                                                                     7
Actual results fell short of the established targets for licit crops and employment
generation mainly because of a “wait and see” policy that USAID/Bolivia adopted in
2006, hoping to better align its activities with the Government of Bolivia’s still unclearly
defined policy toward coca. Later that year, escalating violence in Caranavi led to the
suspension of some of the program’s activities. During this period, projects were still
approved on a case-by-case basis, but large-scale implementation efforts were not
initiated until May 2007 when USAID/Bolivia and the GOB reached an agreement on
program priorities. Implementing partners cited the influence of these events on
achievement of program targets, which were established under the assumption that work
would proceed uninterrupted. Because the issues affecting the political and security
environment have been or are being addressed by the mission, we are not making any
recommendations.

In achieving the five planned results specified above, USAID/Bolivia and its
implementing partners have increased the sales of local businesses through improved
market access, heightened communities’ access to public goods and services, and
assisted rural families in meeting their basic needs.

As shown by the results shown in Table 1 above, USAID/Bolivia’s integrated alternative
development program has had a positive impact on thousands of Bolivian families
through its approach to providing Bolivians with alternative livelihoods to coca growing.
The following examples illustrate the project’s impact:

•	 Producers of amaranth (a highly nutritious grain) in the community of Irupana
   estimated that 40 percent of their production was lost when they used to thresh the
   grain by hand. With threshing machines, purchased with Chemonics’ assistance,
   100 percent of production is now available for processing. With Chemonics technical
   assistance, these producers created a line of breads, flour and snack foods.
   Furthermore, 80 of the amaranth producers have joined efforts with 120 honey
   beekeepers to produce a nutritious product that will be used for the Bolivian Ministry
   of Health’s prebirth and postbirth subsidy program. An order for a one-year supply of
   this product has already been placed.




                                                      In Irupana, producers process amaranth
                                                      into breads, flour, and snack foods. Photo
                                                      taken by a RIG/San Salvador auditor on
                                                      April 9, 2008.

•	 Farmers in the community of La Plazuela estimated that 10 percent of their mango
   crop spoiled during transport and was unable to be sold at market. With ARCo’s
   assistance, the farmers purchased 6,314 plastic crates to replace their flimsy
   cardboard boxes. When stacked, the durable crates do not damage the fruit,
   allowing more to arrive safely at market. As a result, farmers no longer lose a


                                                                                              8
   significant portion of their crop and also will be able to transport other goods. More
   than 100 families make their living from the mango crop.




                                                       Mango farmers in La Plazuela replaced
                                                       their cardboard boxes with durable plastic
                                                       crates, allowing more undamaged fruit to
                                                       arrive at market.    Photo taken by a
                                                       RIG/San Salvador auditor on April 9,
                                                       2008.

•	 Coffee farmers in Trinidad Pampa, Coripata were unable to produce a consistent
   quality of roasted coffee bean because they could not control the temperature and
   timing of their old machinery. Hence, the price per kilogram was at most 20
   bolivianos (the Bolivian local currency). Through ARCo’s assistance, a 16-member
   local organization acquired a new gas- and electric-powered roasting machine.
   Now, they roast three blends of coffee: European, Italian, and American. Once the
   organization receives its sanitary practices certification, the price is expected to
   reach 30 to 40 bolivianos per kilogram. More than 700 local farmers are selling their
   harvests to the organization to be roasted.




                                                       New equipment for roasting coffee beans
                                                       is used by a local organization in Trinidad
                                                       Pampa.     Photo taken by a RIG/San
                                                       Salvador auditor on April 10, 2008.

•	 ACDI/VOCA uses a grassroots, community-based approach to increase access to
   public goods and services and working to meet the basic needs of poor rural
   families. Since the project strives to satisfy a community’s stated needs, its impact is
   best exemplified by highlighting some of their varied activities. For example:

   o	 In Huancané, Chulumani, USAID’s funds were used to complete the second floor
      of a school serving a number of surrounding communities. A parent board is
      responsible for the maintenance. An estimated 570 students attend classes in
      the building, which is expected to serve the communities for the next 15 to 20
      years. Pupils, teachers, and parents showed their appreciation through their
      class leaders and school director at the time of the auditors’ visit. Some 240
      families have benefited from the project.


                                                                                                9
                                                      An estimated 570 students from
                                                      Huancané       and     the   surrounding
                                                      communities attend primary and middle
                                                      school in this building. Photo taken by a
                                                      RIG/San Salvador auditor on April 9,
                                                      2008.

   o	 A community market in Arapata, Coripata was built with ACDI/VOCA’s
      assistance. The market is expected to hold 45 microbusinesses, benefit 46
      families, and serve the community’s 1,600 residents. At the time of the auditors’
      visit, 60 percent of the structure had been completed; it was expected to be
      completed by May 2008.




                                                    Arapata’s market was expected to be
                                                    completed by May 2008. Located in the
                                                    center of the community, the market will
                                                    house 45 stalls.   Photo taken by a
                                                    RIG/San Salvador auditor on April 10,
                                                    2008.

•	 USAID/Bolivia’s Land Titling Project has helped thousands of Bolivians receive legal
   title to their land. According to mission documents, as of September 30, 2007,
   31,481 properties totaling 414,870 hectares in the Chapare have been incorporated
   into the land title regularization process. The owners of 33 percent of these
   properties have received title to their land. Another 33 percent are awaiting the
   signature of the President of Bolivia in order to advance to the final stages of the
   process. However, the President has not approved any titles since August 2007.




                                                                                           10
                                                    A Bolivian man proudly holds his newly
                                                    received land titles.    Photo provided by
                                                    Chemonics International, Inc.

•	 USAID/Bolivia reported that the Rural Roads Authority Project helped rehabilitate or
   improve 548 kilometers of roads during FY 2007. The Rural Roads Authority strives
   to create a rural roads network in the Chapare and the Yungas regions that will
   encourage economic development and tourism.




                                                     A road in the Chapare region supported by
                                                     the USAID/Bolivia’s Rural Roads Authority
                                                     Project. Photo taken by a RIG auditor on
                                                     April 10, 2008.

Although the program continues its positive work implementing its program strategy to
increase the sustainability of licit economic activities in coca growing areas, the mission
needs to address three issues. The mission needs to update and implement a strategy
to phase out support for two Yungas tea factories, obtain required counterpart
contributions from certain coffee producer groups, and dispose of excess program
property. These issues are discussed in the following report sections.




                                                                                           11
Program Needs an Updated Exit
Strategy to Phase Out Funding of
Tea Factories in the Yungas Region
Summary: The mission’s strategic objective for its IAD program is to make the
alternative licit economy in coca growing regions increasingly sustainable. Under a
previous mission project, the market access and poverty alleviation (MAPA) project, two
tea-processing facilities in Caranavi and Chimate were purchased in August 2003. The
MAPA project ended on December 31, 2005, and the responsibility for managing these
activities was transferred to the new Chemonics team under the current rural
competitiveness activity (ARCo). Although USAID/Bolivia and Chemonics have known
that the competitiveness and sustainability of one of these tea plants is questionable and
that the other is not likely to be sustainable in the foreseeable future, the phasing out
and transfer of the two tea processing facilities has been delayed because of unresolved
property rights issues and the need to obtain the GOB’s agreement to transfer one of the
plants. Approximately $2.5 million has been spent so far on these plants, and the
program continues to spend about $20,000 a month to sustain plant activities.

The mission’s objective under the IAD program is to make the alternative licit economy
in coca-growing regions increasingly sustainable. Its agreement with Chemonics to
implement the rural competitiveness activity states that the contractor shall not engage
in approaches that are not sustainable. The contractor is to phase out any activities and
sectors that are not competitive and sustainable. Moreover, the contractor is to
gradually phase out incentives and subsidies provided to business and producer groups
and these groups are to become self-directed and sustainable on their own in a
competitive marketplace. The contractor is to develop clear approaches to using such
subsidies effectively, without creating dependency or gross distortions. The contractor
should also determine how it plans to remove subsidies over time, and to develop the
exit strategies, mechanisms, and approaches it will undertake to “graduate” businesses
and producer organizations from USAID assistance.

Under the previous MAPA project, in August 2003, Chemonics purchased two tea
processing facilities (black and green tea processing) located in Caranavi and Chimate
to help local farmers move away from coca cultivation by providing support in tea leaf
production, processing, and marketing. Both of these plants are located in the Yungas
region of the Department of La Paz. The MAPA project ended on December 31, 2005
and the responsibility for managing these activities was transferred to the new
Chemonics team under the current rural competitiveness activity. To avoid disruption in
the tea activities during the period between the two projects, Chemonics entered into a
subcontract with the Fundación para el Desarrollo Tecnológico Agropecuario del Trópico
Húmedo (FDTA-TH) to support the operations of both tea plants starting in August 2005.
The plan was to make both facilities competitive and sustainable. USAID funds through
MAPA were used to purchase the facilities and equipment. USAID funds were also
provided through both MAPA and ARCo to assist FDTA-TH in financing operational
costs, to provide technical assistance, and to purchase raw materials from tea producers
in the area. However, after five years, these activities are not likely to be sustainable in
the foreseeable future (Caranavi) or are of questionable sustainability (Chimate), as
discussed below.




                                                                                         12
Caranavi Tea Plant - In April 2006, all project activities were suspended in the Caranavi
area due to possible hostile actions against USAID-supported activities in the region,
and FDTA-TH was instructed to suspend operations of the tea facility in Caranavi. In an
effort to continue support of the tea producers in the area, the mission re-opened the tea
plant by temporarily transferring the property to a third party (FDTA-TH) and continuing
support of its operations with project funds through FDTA-TH. As a result, tea
operations resumed on June 1, 2006. Subsequently, the mission and Chemonics
realized that the Caranavi tea-processing operation is not a viable business, as
insufficient quantities of tea are processed in the area.

However, transferring or disposing of the plant would require a signed agreement by
both USAID and the GOB, through the Vice Ministry of Coca and Integrated
Development, and the mission has not approached the GOB to discuss the issue.

From 2003 through November 2005, the MAPA program incurred expenditures of
approximately $1.1 million in support of the Caranavi plant and as of March 31, 2008,
the rural competitiveness activity has spent $217,917 in support of the Caranavi tea-
processing plant operations (not including funds provided for marketing the tea) for a
total investment of more than $1.3 million. Over the last six months, Chemonics
provided on average roughly $5,200 per month in direct support of the tea plant. The
plant continues to operate on a scaled-down processing schedule of two or three times a
week depending on the supply of tea leaves available.

Chimate Tea Plant - In August 2003, the MAPA program initiated the process of
purchasing the Chimate tea-processing facility from Hansa, Ltd., a Bolivian commercial
enterprise firm, through a lease-to-buy agreement with a total negotiated price of
$125,000. On February 18, 2004, a new contract was signed with Hansa committing to
purchase the property, and in March 2004, MAPA paid $90,000 toward the purchase of
the tea plant based on the acquisition of the entire 5.7 hectares of land being used by
the plant. However, it was later determined that Hansa had purchased only three-
quarters of a hectare while the plant expanded over the years to occupy 5.7 hectares.
Thus, an issue arose regarding tenure over the remainder of the property which has
delayed the final payment of $35,000 to conclude the purchase. Four years have
passed since the initial payment was made to Hansa Ltd. and the sale is still not
complete. Nor has it been cancelled, and no other solution been found to resolve the
issue.

Although the Chimate plant has never been self-sustaining without USAID support, at
USAID’s behest, Chemonics performed a commercial feasibility study and exit strategy
for the plant and delivered it to USAID/Bolivia in June 2007. The study determined that
the plant could be transformed into a profitable business and proposed that the tea
producers supplying the plant and the FDTA-TH assume ownership of the plant if a
development organization or consortium could be found willing to invest between
$500,000 and $600,000 in the plant. The feasibility study’s financial projections show
the plant reaching sustainability within three years. International buyers have expressed
interest in the high quality tea produced and have paid prices as high as $7 per pound –
substantially more than the prices previously received on the local market according to
the mission. The feasibility study also assumes that 125 additional hectares of new tea
production will be developed, that Chaimate tea markets will continue to expand, and
that the plant can continue to obtain premium prices for its tea.




                                                                                       13
As of March 31, 2008, the rural competitiveness activity has spent $939,953 supporting
the Chimate tea plant (not including funding provided for marketing the tea) with an
average of $15,345 spent every month to support the facility. Additionally, the prior
program, MAPA, spent $210,000 (including the $90,000 initial payment for the purchase
of the plant) during the course of its support of the plant. In total, USAID/Bolivia has
spent approximately $1.3 million to support the Chimate plant.

Chemonics officials stated that the delay in phasing out funding and transferring the
facilities was due to the need to resolve various property rights issues. Chemonics
submitted a detailed exit strategy for the Chimate operation in June 2007, containing a
timeline for exiting the activity by December 2007. However, measures to prepare the
operation and do the market testing necessary to attract a viable investor and exit the
enterprise took longer than originally anticipated. Negotiations with an interested
investor/partner began in January 2008.

MAPA and Chemonics have spent approximately $2.5 million has been spent on these
plants, and the program continues to incur monthly costs on these activities in the
amount of approximately $20,000. The mission should take appropriate actions to allow
the program’s limited financial resources to be used to fund more competitive and
sustainable activities.

   Recommendation No. 1:        We recommend that USAID/Bolivia work with
   Chemonics to prepare and implement an updated exit strategy detailing specific
   actions to be taken along with timeframes to phase-out funding of the two tea-
   processing facilities.

Program Needs an Action Plan to
Collect Counterpart Contributions
from Coffee Producers
Summary: The mission’s prior alternative development program, MAPA, entered into
grant agreements with seven coffee producer groups whereby the program would fund
$876,011 and the coffee producers would provide $265,920 in counterpart contributions.
However, the producer groups contributed only $52,401, leaving an outstanding balance
of $213,522 for their portion of the project funding. Chemonics’ ARCo program inherited
this outstanding balance and contracted with FDTA-TH to collect the delinquent
payments from the appropriate coffee producers’ groups.            FDTA-TH has been
unsuccessful because the grantees (half of whom are private companies) fear that the
GOB will not approve the official transfer of the assets to them. Thus, Chemonics and
the producers’ groups are at an impasse: the assets cannot be distributed until
outstanding balances are collected, but the producers are reluctant to pay without
guarantees of ownership. The mission should develop and implement an action plan to
clear the ongoing outstanding counterpart contributions from the coffee producer
grantees.

Another issue inherited by the ARCo program from its predecessor program, MAPA
(which ended in 2005), is that of outstanding counterpart contributions by coffee-
processing center grants. The agreements with coffee producers required that, once
they generated income, they were to pay their counterpart contributions.




                                                                                     14
However, the seven grantees have paid only $52,401 in counterpart contributions,
leaving an unpaid amount of approximately $213,522. Chemonics has attempted to
recover the counterpart obligations on its own, even going as far as subcontracting with
FDTA-TH to serve as a collection agent. Under the arrangement developed by MAPA,
FDTA-TH would have been the recipient of these payments anyway as contributions to
its own development fund. In its search for solutions, Chemonics subcontracted FDTA­
TH to pursue the collections in a more aggressive manner. In the end, FDTA-TH was
unsuccessful in collecting any of the outstanding counterpart obligations, and no
payments were ever made under this subcontract, which concluded at the end of 2007.

Chemonics’ staff stated that the coffee producers were unwilling to contribute their
portion because, given the current political environment, there was no assurance that
they would receive ownership of the coffee plant fixed assets after their contributions
were made. The IAD program needs a written letter of approval from the GOB to
transfer ownership of the coffee plants, but mission and partner officials do not believe
the current GOB would be willing to authorize such a transfer to private enterprises.

The end result of this longstanding issue is that $213,522 in past-due counterpart
contributions has not been received from the grantees and, therefore, could not be put to
use funding additional productive development projects as planned.

   Recommendation No. 2: We recommend that USAID/Bolivia develop and
   implement an action plan to resolve the lack of counterpart contributions required
   of the coffee producers.

Mission Needs an Action Plan for
the Disposition of Program Assets
Summary: Section 52.245-1 of the Federal Acquisition Regulation requires that excess
property be disposed of at the time it is determined to be in excess of contractual needs.
The current Chemonics activity has been warehousing hundreds of unusable items from
previous awards that need disposal. The cost of warehousing these items amounts to
approximately $1,600 per month, and Chemonics has spent $25,000 to date in
warehouse and security expenses for these items. One reason the items have not been
disposed of is that mission and partner staff doubt that the GOB would approve the
disposition of the property and assets to private enterprises as they would like to do.
However, the mission has not yet approached the GOB.

Section 52.245-1 of the Federal Acquisition Regulation, entitled “Government Property,”
requires a contractor to have proper authorization from the Contracting Officer for
property disposal and to dispose of items at the time they are determined to be in excess
of contractual needs. Additionally, the Chemonics contract states that the contractor will
submit to the cognizant technical officer for approval a long-range procurement plan for
new nonexpendable property items that carefully considers source, origin, and
nationality restrictions, as well as inventories and disposition of nonexpendable property
to be transferred from activities previously managed by other USAID contractors and
grantees in the Chapare and Yungas areas.

Chemonics staff stated that, since 2005, the project has been warehousing hundreds of
items from previous IAD programs that need to be disposed of. The list of items
warehoused for disposition includes desks, chairs, bookshelves, filing cabinets, and


                                                                                        15
vehicles. To accommodate all these items, the program has rented a number of
warehouse and vehicle storage facilities in the cities of La Paz and Cochabamba. The
assets have little or no value, but the program has spent almost $25,000 to store and
secure this excess property and continues to incur more than $1,600 a month in storage
and related expenses.

Mission and partner staff stated that they doubt the GOB would approve the disposition
of property and assets to private enterprises, but they have not approached the GOB
with the issue.

The program continues to pay warehousing and security costs related to the excess
assets. To date, the program has paid almost $25,000 in warehousing and security
costs to store the assets. Additionally, simply warehousing unneeded assets is unwise
since they may lose value due to obsolescence or lack of regular maintenance.

    Recommendation No. 3: We recommend that USAID/Bolivia work with
    Chemonics and the Government of Bolivia to develop a strategy with specific
    actions and timeframes to dispose of unneeded assets in a timely fashion.

Did USAID/Bolivia’s reporting on its integrated alternative
development program provide stakeholders with complete and
accurate information on the progress of the program and the
results achieved?
USAID/Bolivia’s reporting on its IAD program was complete and accurate with the
exception of its reported figures for its performance indicator “number of full-time
equivalent jobs created.” This issue is discussed in the following section.

ACDI/VOCA Needs to Strengthen
Reporting of the Generation of Full-
Time Equivalent Employment
Summary: According to Automated Directives System (ADS) 203.3.5.1, performance
data should reflect the five quality standards of validity, integrity, precision, reliability, and
timeliness. ACDI/VOCA’s performance monitoring plan established a methodology to
determine the employment generated from infrastructure, economic, and productive
activities. However, monitoring and evaluation personnel did not apply this methodology
in the case of infrastructure projects, relying instead on regional field offices’ reports on
employment generated. Little oversight was carried out to determine the accuracy or
precision of the data submitted to USAID/Bolivia through quarterly reports. The weak
level of oversight resulted in the overreporting of employment figures in both FY 2006
and FY 2007. USAID/Bolivia and ACDI/VOCA should periodically verify performance
data collection methodologies and results. The mission should also work with its partner
to correct prior performance reporting errors and to strengthen the collection and
reporting of full-time equivalent employment creation.

USAID’s ADS section 203.3.5.1 outlines five standards of quality that performance data
should reflect. Missions should assess the validity, integrity, precision, reliability, and
timeliness of data to ensure that the strategic objective team is aware of its strengths,


                                                                                               16
weaknesses, and ability to influence management decisions. USAID provides additional
guidance to strengthen performance data quality in its Monitoring and Evaluation
Guidebook, which states that, for performance monitoring data for indicators,
implementation should be periodically checked to maintain quality control and that
programs should have routine procedures for maintaining quality, such as staff training
for all new staff, periodic review of procedures for consistency of record keeping, and
sometimes supervisor monitoring or duplicate collection/coding for reliability checks.

In November 2007, USAID/Bolivia assessed the quality of the data to be reported for the
number of full-time equivalent (FTE) jobs created by alternative development or
alternative livelihood activities through ACDI/VOCA’s activities. In its assessment, the
mission concluded that the indicator’s data quality was satisfactory, citing clearly defined
methodologies for determining the number of FTE jobs created under infrastructure,
economic, and productive activities.

Infrastructure projects are responsible for more than half of the employment generated
by ACDI/VOCA in FY 2006 and FY 2007. In its performance monitoring plan,
ACDI/VOCA elaborates a method for estimating employment generation based on
historical rates of labor generation for seven types of infrastructure projects, investment
amounts, and working days required to achieve one FTE job. However, monitoring and
evaluation personnel did not apply this methodology to determine the amount of
employment generated. Instead, ACDI/VOCA monitoring and evaluation personnel
simply reported the number of people employed during the project. This method
overstated FTE employment because most laborers were engaged on a temporary basis
only.

ACDI/VOCA reports its results to USAID/Bolivia through quarterly reports. Information
from these reports is subsequently reported as the results achieved by the integrated
development program. However, little verification was performed by either the mission
or by ACDI/VOCA to ensure that the reported performance figures were accurate.

As a result, FY 2006 and FY 2007 achievements for FTE jobs generated by
ACDI/VOCA’s activities were significantly overreported.           In the mission’s 2007
operational plan, USAID/Bolivia reported that ACDI/VOCA’s activities generated 630
jobs in FY 2006. However, when the established methodology was correctly applied, the
number fell to 28, only 4 percent of the reported result. Mission staff stated that 630 jobs
were reported because they mistakenly reported the target amount as the actual number
of jobs created.

In FY 2007, the correct method for calculating employment generation showed 304 FTE
jobs, approximately 62 percent of the 494 reported by ACDI/VOCA.

Accurate information on program results is needed to accurately report on the program’s
progress and to permit well-informed program and budget decisions.

   Recommendation No. 4:           We recommend that USAID/Bolivia work with
   ACDI/VOCA to correct its reporting on FY 2006 and FY 2007 full-time equivalent
   job creation and institutes procedures to accurately report on this indicator.




                                                                                         17
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Bolivia agreed with the findings and recommendations in the draft audit report
and has begun taking action on some of them. Regarding Recommendation No. 1, the
mission stated that funding mechanisms for the two tea-processing facilities have
already concluded and that no new activities will take place. Furthermore, the mission
stated that the implementing partner will complete an exit strategy by October 31, 2008
for the Chimate tea facility and that a proposal to transfer the Caranavi tea plant will be
submitted to the GOB by November 30, 2008. In response to Recommendation No. 4,
the mission stated that ACDI/VOCA has, among other things, hired a monitoring and
evaluation specialist to review 2006 and 2007 results for the equivalent jobs indicator
and to evaluate current data collection and validation procedures. The mission also has
specific plans along with target dates to implement Recommendation Nos. 2 and 3.
Thus, management decisions have been made on all four recommendations. Mission
comments in their entirety are presented in Appendix II.




                                                                                        18
                                                                              APPENDIX I 



SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Audit fieldwork was performed
in Bolivia from March 31 to April 18, 2008, at USAID/Bolivia’s offices in La Paz;
Chemonics International, Inc.’s offices in the cities of La Paz, Coroico, Chimore, and
Ivirgarzama; ACDI/VOCA’s offices in La Paz; Government of Bolivia offices; and
judgmentally selected program communities in the Yungas and in the Chapare regions.

As part of its FY 2008 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions: (1) Did USAID/Bolivia's
Integrated Alternative Development Program achieve planned results and what has
been the impact? (2) Did USAID/Bolivia's reporting on its Integrated Alternative
Development Program provide stakeholders with complete and accurate information on
the progress of the activities and the results achieved? The audit primarily covered the
period from October 1, 2005 to September 30, 2007.

In planning and performing the audit, we assessed the mission’s internal controls related
to its integrated alternative development activities. The internal controls identified
included the mission’s performance management plan, mission data quality
assessments, cognizant technical officer field visits, program quarterly progress reports,
regular communication between mission staff and program implementers, and the
mission’s annual self-assessment of management controls as required by the Federal
Managers’ Financial Integrity Act of 1982.

As of September 2007, USAID/Bolivia’s IAD program had total cumulative obligations of
$225.5 million and total expenditures of $209.5 million. In carrying out the audit,
interviews were conducted with officials from USAID/Bolivia, the Government of Bolivia,
the Department of State, Chemonics International, Inc., ACDI/VOCA, United Nations
Office of Drugs and Crime, the Rural Roads Authority Project, and program
beneficiaries. Program documentation provided by these parties was also reviewed.

As part of the audit fieldwork, we met with various producer groups, business leaders,
and grantees during our regional visits to the Yungas and Chapare regions. We visited
a total of 17 of Chemonics’ 216 competitive market access projects and producer groups
and 14 of ACDI/VOCA’s 457 social and public projects. These 31 activities in the two
regions included such projects as community potable water projects, fish farms, banana
processing, supplying school furniture, poultry farms, public restroom facilities, pineapple
production, honey production, palm heart production and processing, and leadership
training to young community-selected leaders.




                                                                                         19
                                                                             APPENDIX I 


Methodology
T answer the audit objectives, we interviewed officials from USAID/Bolivia, implementing
partners, and the Government of Bolivia. We reviewed relevant mission program
documentation, such as the mission’s strategic plan, the mission’s performance plan,
performance management plan, operational plan, award documents, correspondence,
field visit reports, and data quality assessments. We also reviewed contractor-prepared
documentation, such as annual work plans, quarterly and annual progress reports, and
monthly reports prepared by regional office staff.

To determine whether results were achieved, we focused on one performance indicator
included in the mission’s FY 2005-2009 performance management plan and six
indicators included in the mission’s FY 2007 operational plan. We selected these seven
indicators because they are considered to be the principal planned results of the
program. We conducted interviews with officials from implementing partners and a
sample of beneficiaries in the field. We reviewed partners’ progress reports and
supporting documentation. In selecting activities to visit in the field, we judgmentally
selected 17 of 216 Chemonics projects and 14 of 457 ACDI/VOCA projects throughout
the lower Yungas and Chapare regions. The judgmental sample selection was based on
a number of factors including selecting a variety of types of projects and achieving a
balance between ACDI/VOCA and ARCo projects. Logistics was also a factor: many
projects are remote and travel to them is difficult, and our site visit time was limited.

To determine whether complete and accurate information was reported, we interviewed
mission and implementing partner personnel to gain an understanding of how results are
collected and reported. We validated the reported results for FY 2006 and FY 2007 by
tracing mission-reported results back to the records maintained at the offices of the
implementing partners. For three of the selected indicators, we validated the results for
two of the eight quarters of the audit period. For one indicator, we validated results for
two of the eight quarters for Chemonics and all quarters for ACDI/VOCA. For one
indicator for which reporting began in FY 2007, we validated results for one quarter. For
two of the indicators, we reviewed data submitted from the implementing partners.




                                                                                       20
                                                                           APPENDIX II


MANAGEMENT COMMENTS
DATE:         July 15, 2008

REPLY TO:     Alan Hurdus, Acting Director, USAID/Bolivia

TO:           Timothy E. Cox, RIG/San Salvador

SUBJECT:      USAID/Bolivia’s response to the audit report of the Integrated Alternative
              Development Program (Report No. 1-511-08-00X-P)



USAID/Bolivia has reviewed the draft audit report transmitted to the Mission on June 18,
2008 and provides our comments below. We would like to first thank the RIG leadership
and the audit team for the thoughtful and well-written report. The Mission appreciates
the efforts taken to understand the complex issues and to propose useful and
reasonable recommendations to strengthen the management and performance of our
IAD programs. Below are responses to the specific recommendations.

Recommendation No. 1: We recommend that USAID/Bolivia work with Chemonics to
prepare and implement an updated exit strategy detailing specific actions to be taken
along with timeframes to phase-out funding of the two tea processing facilities.

Response to Recommendation No. 1: The Mission concurs with this recommendation
and has already begun to implement the recommendation. Grant assistance to the
Chimate tea factory and one sub-contract with the Fundación Trópico Húmedo (FDTA­
TH) supporting operational costs of the Chimate and Caranavi tea plants and expansion
of production of raw materials concluded on June 30, 2008. Another subcontract with
FDTA-TH designed to secure an investor for the Chimate tea operation, also scheduled
to conclude on June 30, was terminated prematurely on April 25 when the prospective
investor withdrew. While payments under these now-concluded mechanisms will
continue to be disbursed over the next several months as results are verified and
documentation secured, no new activities under these grants/subcontracts will take
place beyond those dates. As such, USAID funding mechanisms for the two tea
processing facilities have already concluded.

We are currently operating in a complicated and challenging environment that has a
bearing on proposed actions and our ability to optimally resolve and execute proposed
actions. Nevertheless an exit strategy to address the implications of our funding and its
discontinuation to Chimate, S.A. is currently being updated and will be submitted by
Chemonics on October 31, 2008. This will include an updated plan for title transfer of
the Chimate tea plant, as well as a transfer of Chimate, S.A. to the local producers. The
latter could include provision of limited technical assistance by the ARCo project in
organizational development and marketing.

Regarding the Caranavi tea plant, an approval to temporarily transfer ownership of this
asset was issued by the Mission to Chemonics in May, 2006. The Mission will submit an
asset disposition proposal to the Vice Ministry of Coca and Integrated Development


                                                                                      21
                                                                              APPENDIX II

(VCDI) which includes the proposed transfer of the tea plant by November 30, 2008.

Recommendation No. 2: We recommend that USAID/Bolivia develop and implement an
action plan to resolve the lack of counterpart contributions required of the coffee
producers.

Response to Recommendation No. 2: The Mission concurs with this audit
recommendation. We believe that, in the absence of guarantees from the GOB that the
coffee grantees will be able to assume ownership of the coffee processing facilities, it is
highly unlikely that these counterpart contributions will ever be collected. This places the
status of the assets in limbo, since an Implementation Letter signed by VCDI is
necessary in order to transfer ownership of the assets. The Mission, in collaboration
with Chemonics and VCDI, will develop an action plan for resolving this issue by
November 30, 2008.

Recommendation No. 3: We recommend that USAID/Bolivia work with Chemonics and
the GOB to develop a strategy with specific actions and timeframes to dispose of
unneeded assets in a timely fashion.

Response to Recommendation No. 3: The Mission concurs with this audit
recommendation. The Mission will work with Chemonics to review and update the asset
disposition plan and will draft a corresponding implementation letter for the purpose of
discussion with VCDI by November 30, 2008.

It should be noted that while the Mission can formulate its action plans, component
actions and corresponding dates, and will do so with a view towards maximizing
programmatic impact and sustainability, the current policy environment could complicate
our ability to effect the proposed disposition of assets in planned time frames.

Recommendation No. 4: We recommend that USAID/Bolivia work with the Assistance
(ACDI/VOCA) to correct errors for its full-time equivalent job creation performance
indicator and institute procedures to accurately report performance data in the future.

Response to Recommendation No. 4:                The Mission concurs with this audit
recommendation and has already begun to implement actions in coordination with
ACDI/VOCA. These include the following: a) ACDI/VOCA has contracted a study to
assess and as necessary refine the methodology used to measure the creation of jobs
and increased sales for its economic development projects, b) ACDI/VOCA hired a
Monitoring & Evaluation specialist to review 2006 and 2007 results for the equivalent
jobs indicator, and to evaluate current data collection and data validation procedures and
improve internal quality control methods. The IAD office will conduct periodic checks to
assess and maintain data quality control.

USAID/Bolivia will input the correct data in the FY 2008 Performance Review report as
well as in the Operational Plan information system (FACTS). These actions are
expected to be completed by November 2008 in accordance with Agency guidelines.




                                                                                         22
U.S. Agency for International Development 

        Office of Inspector General 

       1300 Pennsylvania Ave., NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
